  OFFICE OF INSPECTOR GENERAL
  AUDIT REPORT




      RCRA ENFORCEMENT
 RCRA SIGNIFICANT NON-COMPLIER
IDENTIFICATION AND ENFORCEMENT
      BY THE RHODE ISLAND
 DEPARTMENT OF ENVIRONMENTAL
          MANAGEMENT
         E1GSD8-01-0006-9100078

           JANUARY 21, 1999
Inspector General Division         Eastern Audit Division
Conducting the Audit:              Boston, Massachusetts

Region Covered:                    Region 1

Program Offices Involved:          Office of Environmental Stewardship &
                                   Office of Ecosystem Protection


                       (Photographs provided by RIDEM)
MEMORANDUM
SUBJECT:       Report of RCRA Significant Non-Complier Identification and
               Enforcement by the Rhode Island Department of
               Environmental Management (RIDEM)
               Audit Report No. E1GSD8-01-0006-9100078
FROM:          Paul D. McKechnie
               Divisional Inspector General
               Eastern Audit Division
TO:            John DeVillars
               Regional Administrator
               Region 1


       Attached is our audit report, RCRA Significant Non-Complier Identification and
Enforcement by the Rhode Island Department of Environmental Protection. This report contains
findings and recommendations that are important to both EPA and the Rhode Island Department
of Environmental Management.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings described in this audit report are not binding upon EPA in any enforcement proceeding
brought by EPA or the Department of Justice.

ACTION REQUIRED

        In accordance with EPA Order 2750, you as the action official are required to provide this
office a written response to the audit report within 90 days. Your response should address all
recommendations, and include milestone dates for corrective actions planned, but not completed.

       We have no objection to the release of this report to the public.
        Should you or your staff have any questions about this report, please contact me or Linda
Fuller, Team Leader at (617) 918-1470.

Attachment

cc:    G. Mollineaux, Region 1 Audit Coordinator
       I. Leighton, OES
       R. Piligian, OES
       B. Mendoza, OEP
       RIDEM
                                           RCRA Significant Non-Complier Identification
                                                  and Enforcement by the Rhode Island
                                             Department of Environmental Management




                   EXECUTIVE SUMMARY
INTRODUCTION        The Resource Conservation and Recovery Act (RCRA)
                    required EPA to develop a framework of hazardous waste
                    regulations. Congress intended that States assume
                    responsibility for implementing RCRA regulations with
                    oversight from EPA. As a result, States are primarily
                    responsible for identifying RCRA Significant Non-Compliers
                    (SNCs) and taking formal enforcement actions against them.
                    For the RCRA program to be effective in reducing risks to
                    human health and the environment, it is essential that
                    facilities out of compliance be identified and quickly returned
                    to compliance. Over the past year, Region 1 identified
                    weaknesses in the Rhode Island Department of
                    Environmental Management’s (RIDEM’s) enforcement of
                    RCRA. These weaknesses were conveyed by the Regional
                    Administrator in writing, to the Governor and RIDEM’s
                    Director. The letters conveyed deep concern over a serious
                    shortfall in committing financial resources and personnel
                    which impeded RIDEM’s ability to effectively implement the
                    enforcement program. EPA grant funds were not fully spent
                    and vacancies were slow to be filled.


OBJECTIVES          The overall objective of our audit was to determine if RIDEM
                    implemented its RCRA enforcement program in accordance
                    with EPA’s Enforcement Response Policy (ERP).
                    Specifically, we determined whether RIDEM:

                    1.     Issued appropriate and timely enforcement actions;

                    2.     Ensured that violators complied with enforcement
                           compliance schedules; and

                    3.     Identified SNCs.

RESULTS IN BRIEF    RIDEM did not effectively enforce its RCRA program in
                    accordance with the EPA ERP. RIDEM did not: (1) issue


                                     i                               Report No. 9100078
                                              RCRA Significant Non-Complier Identification
                                                     and Enforcement by the Rhode Island
                                                Department of Environmental Management




                       appropriate and timely enforcement actions; (2) ensure that
                       violators complied with enforcement compliance schedules;
                       and (3) identify SNCs. Specifically, RIDEM’s failure to
                       dedicate available resources to RCRA indicated a lack of
                       management commitment to effective enforcement. To
                       compound the problem, RIDEM did not have a detailed
                       RCRA enforcement policy or an effective enforcement
                       tracking system. Additionally, RIDEM management did not
                       believe the identification of SNCs was a State responsibility.
                       As a result, hazardous wastes were not managed in an
                       environmentally sound manner, thus risking the health and
                       protection of the State’s population and environment. Such
                       serious violations as leaking battery acid and drums of
                       hazardous waste did not receive formal enforcement. Also,
                       RIDEM’s over-reliance on informal enforcement actions
                       could provide non-complying facilities an economic
                       advantage over facilities complying with the RCRA law,
                       while allowing the violation to continue.

Inappropriate          RIDEM did not take formal enforcement in 12 of the 20 case
Enforcement Actions    files (60 percent) reviewed. In our opinion, RIDEM staff did
                       not correctly interpret the EPA ERP when determining the
                       appropriate level of enforcement to take. They issued
                       Letters of Deficiency (LODs), informal enforcement, when
                       violations were serious enough to merit formal enforcement.

Untimely Enforcement   None of the four cases proposed for formal enforcement
                       were finalized within EPA ERP’s time frame of 180 days.
                       Three cases were still not finalized after 206 to 376 days
                       had passed. One case was finalized after 461 days.
                       Overall, RIDEM’s enforcement production and timeliness
                       have been deteriorating. The number of formal and informal
                       actions issued has dramatically decreased, while the
                       average time to take these actions has increased. Untimely
                       enforcement resulted from RIDEM’s reluctance to establish
                       time frames for taking actions. Also, RIDEM had not utilized
                       a tracking system to ensure program efficiency.


                                       ii                               Report No. 9100078
                                              RCRA Significant Non-Complier Identification
                                                     and Enforcement by the Rhode Island
                                                Department of Environmental Management




Inadequate Follow-up   RIDEM did not conduct effective follow-up of cited violations
to Cited Violations    to ensure that facilities returned to compliance. In 10 of the
                       20 files reviewed (50 percent), follow-up was non-existent or
                       inadequate. RIDEM management had not set an
                       appropriate emphasis to conduct follow-ups and had not
                       established an effective system to track compliance
                       schedules.

SNC Identification     In the past, Region 1 did not hold RIDEM responsible for
                       identifying SNCs. The current grant now adds identification
                       of SNCs as a RIDEM responsibility. Corrective action has
                       been taken.


RECOMMENDATIONS        We recommend that the Regional Administrator instruct
                       regional staff to continue to work with RIDEM to improve its
                       management of the RCRA enforcement program. Specific
                       recommendations for achieving this can be found in the
                       Recommendations section at the end of Chapter 2. If
                       RIDEM’s performance does not improve within a determined
                       period of time, the region should begin the process of
                       withdrawal of the State’s delegated authority for RCRA
                       enforcement.


AGENCY COMMENTS        The Regional Administrator responded to our draft report on
& OIG EVALUATION       December 15, 1998. The Regional Administrator stated that
                       the Region is in agreement with the findings, conclusions,
                       and recommendations contained in the draft report
                       regarding RIDEM’s administration of the RCRA program and
                       more specifically, RIDEM’s enforcement of its hazardous
                       waste regulations.

                       RIDEM responded to our draft report on December 4, 1998.
                       RIDEM stated that they were disappointed in the audit
                       process and claimed that its response to the OIG position
                       paper was not recognized. However, their response was

                                       iii                              Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management



considered when developing our audit report. RIDEM


provided a listing of the actions they have already taken to
address the issues raised in the audit report.

We concur with the Region 1's proposed actions and
believe that RIDEM’s response shows they are taking
positive steps to improve their RCRA Enforcement Program.




                iv                               Report No. 9100078
                                        RCRA Significant Non-Complier Identification
                                               and Enforcement by the Rhode Island
                                          Department of Environmental Management



                         Abbreviations

CA      Consent Agreement

EPA     Environmental Protection Agency

ERP     Enforcement Response Policy

FMFIA   Federal Managers’ Financial Integrity Act

HW      Hazardous Waste

LOD     Letter of Deficiency

NOV     Notice of Violation

OC&I    Office of Compliance and Inspection

OIG     Office of Inspector General

OWM     Office of Waste Management

RCRA    Resource Conservation and Recovery Act

RCRIS   Resource Conservation and Recovery Information System

RIDEM   Rhode Island Department of Environmental Management

SNC     Significant Non-Complier

SV      Secondary Violator

TSD     Treatment/Storage/Disposal




                                                                  Report No. 9100078
                        RCRA Significant Non-Complier Identification
                               and Enforcement by the Rhode Island
                          Department of Environmental Management




[This page intentionally left blank]




                                                  Report No. 9100078
                                                                               RCRA Significant Non-Complier Identification
                                                                                      and Enforcement by the Rhode Island
                                                                                 Department of Environmental Management




                                          Table of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

CHAPTERS

CHAPTER 1 - Introduction

          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
          Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

CHAPTER 2 - RIDEM Is Not Adequately Enforcing RCRA . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     Inappropriate Enforcement Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
     Untimely Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
     Inadequate Follow-up to Cited Violations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
     Significant Non-Complier Identification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
     Regional Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
     RIDEM’s Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

Appendix A: Inadequate Level of Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      29
Appendix B: Inadequate Follow-up to Cited Violations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         31
Appendix C: Regional Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              33
Appendix D: RIDEM Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               42
Appendix E: Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       46




                                                                                                                   Report No. 9100078
                        RCRA Significant Non-Complier Identification
                               and Enforcement by the Rhode Island
                          Department of Environmental Management




[This page intentionally left blank]




                                                  Report No. 9100078
                                    RCRA Significant Non-Complier Identification
                                           and Enforcement by the Rhode Island
                                      Department of Environmental Management




                    CHAPTER 1
                    Introduction

PURPOSE      EPA developed the Resource Conservation and Recovery
             Act (RCRA) regulations for the safe management of
             hazardous waste. EPA also delegated authority to State
             agencies, such as the Rhode Island Department of
             Environmental Management (RIDEM), the primary
             responsibility for implementing RCRA to ensure that the
             public health and environment are protected. Over the past
             year, Region 1 identified serious weaknesses in RIDEM’s
             enforcement of RCRA. Among the issues raised, the
             Region cited RIDEM for not spending grant funds and not
             filling staff vacancies. By not dedicating available
             resources, Rhode Island management indicated that it
             lacked commitment to carry out an effective RCRA
             enforcement program. In view of the Region’s cited
             weaknesses, the overall objectives of our audit were to
             determine whether RIDEM:

                   1.     Issued appropriate and timely enforcement
                          actions;

                   2.     Ensured that violators complied with
                          enforcement compliance schedules; and

                   3.     Identified SNCs.


BACKGROUND   Serious environmental and health problems caused by
             hazardous waste mismanagement resulted in legislation and
             regulations to clean up waste released into the environment
             and to prevent further releases. Congress enacted RCRA in
             1976 which established, under Subtitle C, a framework for
             managing hazardous waste from generation to final
             disposal. Hazardous waste is solid waste which, because of
             its quantity, concentration, physical, chemical, or infectious

                             1                                Report No. 9100078
                      RCRA Significant Non-Complier Identification
                             and Enforcement by the Rhode Island
                        Department of Environmental Management



characteristics, may pose a hazard to human health or the
environment. RCRA mandated that EPA develop a
comprehensive set of hazardous waste regulations. As a
result, all solid waste generators must determine if their
waste is hazardous and thus subject to regulation under
Subtitle C. Hazardous waste generators, transporters,
treatment, storage, and disposal facilities must manage their
wastes in accordance with these regulations. In addition,
most treatment, storage, and disposal facilities must be
permitted.

Congress intended that States assume responsibility for
implementing RCRA hazardous waste regulations with
oversight from the Federal Government. In order to become
authorized to implement the Subtitle C program, a State
must develop a hazardous waste program which is
equivalent to and consistent with the Federal program and
have it approved by EPA. Although a State with an
authorized program has primary responsibility for
administering Subtitle C, EPA retains oversight
responsibility and parallel enforcement authority.

In addition, EPA awards annual grants to States, under
RCRA Section 3011, for the development and
implementation of hazardous waste programs. States and
EPA regions negotiate the specific work that must be
accomplished with the grant funds. State authorization may
be withdrawn by EPA if the EPA Administrator determines
that the State program no longer complies with the
regulatory requirements, and the State fails to correct the
problem.

Since Rhode Island is a delegated State, RIDEM carries out
the primary responsibility of implementing and enforcing the
RCRA program. In recent years, the Rhode Island State
Legislature attacked RIDEM’s operations, claiming RIDEM
had misused its environmental regulatory powers. In
response, according to RIDEM’s Associate Director, RIDEM
was reorganized in September 1996, to bring consistency to
its enforcement program.

                2                               Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management



As a result of this reorganization, the Offices of Waste
Management (OWM) and Compliance and Inspection
(OC&I) were created. Hazardous waste, solid waste and
underground storage tank licensing, permitting and site
remediation functions were consolidated with the OWM.
Compliance activities (e.g., inspections), including
emergency response and enforcement programs, were
consolidated into the OC&I. However, inspections and
informal enforcement actions for treatment, storage, and
disposal (TSDs) facilities were handled by the OWM.

When facilities are cited for violations during inspections,
RIDEM must take appropriate enforcement actions.
Appropriate enforcement responses are discussed in EPA’s
hazardous waste enforcement response policy (ERP). An
enforcement response may be either a formal or informal
enforcement action.

Formal enforcement may take the form of an administrative
order, civil lawsuit, or criminal lawsuit. A monetary penalty
may be imposed as part of the enforcement action. A facility
classified as a significant non-complier (SNC) merits a
formal enforcement action.

The 1996 EPA ERP defined a SNC:

      The designation of Significant Non-Complier (SNC) is
      intended to identify non-compliant facilities for which
      formal enforcement is appropriate. Specifically,
      SNCs are those facilities which have caused actual
      exposure to hazardous waste or hazardous waste
      constituents; are chronic or recalcitrant violators; or
      deviate substantially from the terms of a permit,
      order, agreement or from RCRA statutory or
      regulatory requirements.

An informal enforcement response, consists of issuing a
Letter of Deficiency (LOD) which cites the violations and
provides a schedule for returning the facility to compliance.
This is the minimally appropriate enforcement action for a

                3                                Report No. 9100078
                                      RCRA Significant Non-Complier Identification
                                             and Enforcement by the Rhode Island
                                        Department of Environmental Management



              Secondary Violator (SV). A facility which does not meet the
              SNC definition is classified as a SV. An informal
              enforcement action does not include economic sanctions.
              However, a facility which fails to return to compliance
              following an informal enforcement response should be
              reclassified as a SNC and receive a formal enforcement
              response.

              The ERP defines a chronic or recalcitrant facility as one
              having repeated violations (even if minor in themselves) or
              one that fails to quickly correct violations in the past. This
              designation may classify the facility as a SNC. A facility
              should be evaluated on a multi-media basis to determine
              whether it is a chronic violator or recalcitrant. However, a
              facility may also be found to be a chronic or recalcitrant
              violator based solely on prior RCRA violations.

              RIDEM was not identifying SNCs in the Resource
              Conservation and Recovery Information System (RCRIS)
              based on an agreement with EPA Region 1. However, in
              RIDEM’s draft FFY 1998 Compliance Strategy, RIDEM will
              identify significant non-compliers and continue to submit
              data for national enforcement databases maintained by
              EPA.

              A core principle of EPA’s enforcement and compliance
              assurance program is that violators should not gain an
              economic advantage. EPA’s Enforcement Response Policy
              states that an appropriate enforcement response “will
              achieve a timely return to compliance and serve as a
              deterrent to future noncompliance by eliminating any
              economic advantage received by the violator.” An additional
              reason for recovering economic benefit is to eliminate the
              economic advantage violators gain over their competitors
              who have invested time and money in achieving compliance.

SCOPE AND     We performed this audit in accordance with Government
METHODOLOGY   Auditing Standards (1994 Revision) issued by the
              Comptroller General of the United States as they apply to
              performance audits. Our review included tests of the

                               4                                Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management



 program records and other auditing procedures we
considered necessary.

RIDEM was selected for review because it had not identified
any SNCs in several years and the Region had documented
concerns regarding RIDEM’s RCRA Enforcement program.

We reviewed facility files containing inspection reports,
enforcement actions and related correspondence to
determine whether RIDEM took appropriate enforcement
actions against facilities with violations. We did not
evaluate the quality of inspections or penalties calculated for
formal enforcement actions. Twenty facility files were
reviewed in total. Seventeen files were selected on a
judgmental basis from a universe of 47 facilities from the
Federal fiscal years 1996 and 1997 RCRIS report of
inspections with violations. Three files were selected based
on discussions with RIDEM staff and review of RIDEM’s
inspection inventory. The 20 sampled cases included
permitted facilities, large quantity generators, small quantity
generators, and non-classified facilities.

In order to address our audit objectives we conducted the
following audit work:

       T      Interviewed EPA Region 1 and RIDEM staff.

       T      Reviewed the inspection reports and the level
              of enforcement action taken by RIDEM in
              response to the cited violations.

       T      Compared cited violations to the 1996 EPA
              Enforcement Response Policy and to RIDEM’s
              Enforcement Response Policy, in order to
              evaluate whether RIDEM’s level of
              enforcement taken complied with the above
              policies.

       T      Obtained technical assistance in our case file
              reviews from the Region 1 RCRA staff.

                5                                Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management




      T      Compared the information in the RIDEM facility
             case files to the RCRIS database for accuracy
             and completeness.

      T      Evaluated the timeliness and adequacy of
             RIDEM’s follow-up response to cited violations
             reported to facilities in LODs.

      T      Evaluated the amount of time it took RIDEM to
             issue enforcement actions from the date of the
             inspection and compared this amount of time
             to the Enforcement Response Policy guidance.

We reviewed management controls and procedures
specifically related to our objectives. However, we did not
review the internal controls associated with the input and
processing of information into RCRIS or other automated
records system.

We reviewed Region 1's Fiscal Year 1997 Assurance Letter
prepared to comply with the Federal Managers’ Financial
Integrity Act (FMFIA). Based upon the Region’s oversight
efforts and the OIG’s September 29, 1997 report, Validation
of Air Enforcement Data Reported to EPA by
Massachusetts, Region 1 reported identification of facility
non-compliance by States as a weakness for all New
England States for the three major media enforcement
programs (NPDES, RCRA and Air). Our current review and
report provides detailed information and recommendations
related specifically to RIDEM and its administration of its
RCRA program which the 1997 Assurance Letter did not
address.

Our fieldwork was performed from March 3, 1998 to July 31,
1998. Field work was conducted at Region 1's Boston,
Massachusetts office and RIDEM’s Providence, Rhode
Island office. We discussed our preliminary conditions with
RIDEM’s OC&I and OWM managers and provided them a
position paper on June 24, 1998. They responded on July

                6                                Report No. 9100078
                                         RCRA Significant Non-Complier Identification
                                                and Enforcement by the Rhode Island
                                           Department of Environmental Management




                   16, 1998 and their comments have been considered in the
                   preparation of this draft report. Another meeting was held
                   with RIDEM officials on September 16, 1998 to further
                   discuss RIDEM’s response.


PRIOR AUDIT COVERAGE     No prior OIG audits have been conducted of RIDEM’s
                         RCRA program. OIG’s Headquarters Audit Division
                         (HAD) issued an audit report, Significant Non-
                         Complier Enforcement by EPA and Washington State
                         (Report No. E1GSF7-11-0019-8100093) issued
                         March 31, 1998. EAD’s assignment is considered a
                         follow-on audit to HAD’s work.




                                   7                               Report No. 9100078
                        RCRA Significant Non-Complier Identification
                               and Enforcement by the Rhode Island
                          Department of Environmental Management




[This page intentionally left blank]




                 8                                Report No. 9100078
                                RCRA Significant Non-Complier Identification
                                       and Enforcement by the Rhode Island
                                  Department of Environmental Management




             CHAPTER 2
RIDEM Is Not Adequately Enforcing RCRA
         The Rhode Island Department of Environmental
         Management (RIDEM) did not take enforcement actions in
         accordance with the EPA Enforcement Response Policy
         (ERP). RIDEM did not: (1) issue timely and appropriate
         enforcement actions; (2) ensure that violators returned to
         compliance timely; and (3) identify Significant Non-
         Compliers (SNCs). Specifically, RIDEM’s failure to dedicate
         available resources to RCRA indicated a lack of
         management commitment to effective enforcement. To
         compound the problem, RIDEM did not have a detailed
         RCRA enforcement policy or an effective enforcement
         tracking system. Additionally, RIDEM management did not
         believe the identification of SNCs was a State responsibility.
         As a result, RIDEM did not ensure that wastes were
         managed in an environmentally sound manner, thus risking
         the protection of human health and the environment.

         Region 1 had previously identified similar problems with
         RIDEM’s RCRA enforcement program. Since early 1997,
         Region 1 provided increased oversight and assistance to
         RIDEM. In March 1998, the Regional Administrator wrote to
         the Rhode Island Governor expressing EPA’s
         dissatisfaction with RIDEM’s efforts to fill positions and the
         downward trend in formal enforcement initiated by RIDEM.
         The Regional Administrator expressed further displeasure
         with RIDEM’s poor performance in subsequent letters to the
         RIDEM Director. Our review provided further confirmation of
         the inadequacy of Rhode Island’s RCRA enforcement
         program.




                         9                                Report No. 9100078
                                             RCRA Significant Non-Complier Identification
                                                    and Enforcement by the Rhode Island
                                               Department of Environmental Management



                      Our review disclosed breakdowns in the administration of
                      the RCRA program in the following areas:

                      1(a).   Inappropriate Enforcement Actions

                       (b).   Untimely Enforcement

                      2.      Inadequate Follow-up to Cited Violations

                      3.      Failure to Identify SNCs.


Inappropriate         RIDEM did not take formal enforcement in 12 of the 20
Enforcement Actions   cases (60 percent) reviewed. In each of the cases
                      reviewed, RIDEM staff issued Letters of Deficiency (LODs),
                      which are classified as informal enforcement actions.
                      Contrary to the ERP, LODs were issued for such serious
                      violations as leaking drums and battery acid, missing
                      secondary containment, and to chronic violators or facilities
                      operating without a RCRA permit. RIDEM’s selection of
                      informal enforcement for these type of violations showed
                      that the State did not properly interpret the EPA ERP. In
                      most cases, formal enforcement includes a monetary
                      penalty. RIDEM’s over-reliance on informal enforcement
                      actions allows non-complying facilities an economic
                      advantage over facilities complying with RCRA. In our
                      opinion, RIDEM’s actions send a message to the regulated
                      industry that violations will not be penalized.

                      Region 1 conducted a 1997 mid-year review of RIDEM’s
                      RCRA compliance monitoring and enforcement. The
                      Region 1 RCRA technical staff person reviewed issued and
                      pending enforcement actions, and provided RIDEM a
                      summary of his review. For four proposed informal
                      enforcement actions reviewed, explanations were provided
                      detailing why RIDEM’s proposed actions were inappropriate.
                      EPA recommended that RIDEM re-evaluate each case and




                                      10                               Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management



issue formal enforcement. This mid-year review was
provided to RIDEM as technical guidance to improve the
RCRA enforcement program.

In order to evaluate whether the level of enforcement taken
was adequate, we compared the reported violations
contained in the LODs to the SNC definition. Based on the
information available on file, we concluded that 12 of the 20
facilities should have received formal enforcement (See
Appendix A for details). However, all 12 received informal
enforcement action.

The following cases are examples of inadequate
enforcement:

Case RI10 was a chronic violator and was responsible for
the release of hazardous waste. The company was under a
consent agreement, dated November 1994. A May 30,
1996, inspection reported the following violations: many
drums of waste oil and accumulated, leaking lead-acid
batteries stored throughout the site without any containment;
drums of regulated hazardous waste (waste oil, capacitors)
not labeled; no hazardous waste contingency plan; and
several discrepancies with manifest/shipping documents.
Based on this inspection, RIDEM issued an informal
enforcement action. The number and seriousness of these
violations warranted formal enforcement action.
Furthermore, the EPA ERP provides that a facility classified
as a secondary violator (informal enforcement) should not
have a history of non-compliant conduct. Facilities should
be evaluated on a multi-media basis to determine whether
they are a chronic violator or recalcitrant. The 1996
violations coupled with the facility’s history of violations,
should have warranted a formal enforcement action.

Case RI01 was another chronic violator which also was
responsible for releasing hazardous waste. RCRIS provided
a list of 7 informal enforcement actions assessed against
this facility between 1984 and 1995.


                11                               Report No. 9100078
                      RCRA Significant Non-Complier Identification
                             and Enforcement by the Rhode Island
                        Department of Environmental Management



On September 15, 1995, a RIDEM inspection found:

      T      Condition of Containers - drums containing
             hazardous waste were in poor condition with
             detectable odors being emitted.

      T      Aisle Space - insufficient aisle space in the
             hazardous waste storage area.

      T      Secondary Containment - inspectors observed
             cracks on the surface of the secondary
             containment areas.

      T      Storage Area - inadequate/incorrect signage
             for the storage area.

Based on this inspection, RIDEM issued an LOD on
November 10, 1995. The facility responded in writing on
December 5, 1995 to the noted violations.

On September 29, 1997, a RIDEM inspection found:

      T      Condition of Containers - drums containing
             hazardous waste were leaking.

      T      Aisle Space - insufficient aisle space in the
             hazardous waste storage room.

      T      Containment Building - inspector observed
             cracks in the surface of the treatment area.

      T      Storage Area - signage for storage areas in
             building 4 was obstructed from view and
             unclearly labeled.

RIDEM issued this facility an LOD on October 22, 1997.
The facility responded to an October 1997 informal
enforcement action on November 12, 1997 providing
assurances that violations were addressed. However, both
the 1995 and 1997 informal enforcement actions were

               12                               Report No. 9100078
                                              RCRA Significant Non-Complier Identification
                                                     and Enforcement by the Rhode Island
                                                Department of Environmental Management




                       inappropriate. The facility has a history of chronic violations
                       and recalcitrance.

                       RIDEM did not agree with our analysis of the cases.
                       However, RIDEM did not provide any contrary evidence to
                       support their position that the 12 cases warranted informal
                       rather than formal enforcement. We provided RIDEM with a
                       “position paper” describing what we found during the file
                       review and our preliminary conclusions. After reviewing our
                       position paper, RIDEM responded by writing:

                              [T]he RCRA ERP allows the State flexibility in
                              determining whether or not a facility should be
                              designated an SNC or SV and considerable guidance
                              is provided. While the wording in the RCRA ERP
                              regarding Appropriate Enforcement Response
                              (Section IV. A.) is fairly clear regarding actual or
                              substantial likelihood of exposure to hazardous
                              wastes and chronic or recalcitrant violators, it is less
                              clear when it refers to substantial deviation from
                              RCRA statutory or regulatory requirements. This
                              section, RIDEM believes is subject to interpretation
                              based upon the facts of the case. While RIDEM did
                              not affirmatively declare in RICRIS [sic] that a violator
                              was an SNC or SV, it is our belief that, based upon
                              the circumstances of the case, the appropriate action
                              for the cases noted was informal enforcement.

                       In our opinion, the cited cases clearly showed a substantial
                       likelihood of exposure to hazardous wastes and/or chronic
                       violators.


Untimely Enforcement   RIDEM did not take formal enforcement within 180 days in
                       accordance with the EPA ERP. Of four proposed formal
                       actions, three remained outstanding from 206 to 376 days
                       and one formal action was issued after 461 days. In one
                       case, hundreds of containers of hazardous waste were
                       stored in rusted drums without secondary containment. This

                                       13                               Report No. 9100078
                                    RCRA Significant Non-Complier Identification
                                           and Enforcement by the Rhode Island
                                      Department of Environmental Management



              situation provided a potentially hazardous condition. In

              another case, chemical analysis indicated that a release of
              hazardous waste had occurred. Overall, RIDEM’s
              enforcement production and timeliness at both the formal
              and informal levels have deteriorated. RIDEM management
              needs to establish time frames for completing actions and to
              utilize a system such as RCRIS to oversee production
              progress. Untimely enforcement could result in harm to the
              public and environment. Also, non-complying facilities may
              have an economic advantage over their competitors as
              compliance with RCRA regulations often adds to the cost of
              doing business.

              The following table shows how long each case has
              remained in the pipeline:

FACILITY   INSPECTION           ELAPSED DAYS                ERP TIME
              DATE               AS OF 5-31-98               FRAMES
  RI15       11-05-97               206                        180
  RI17       08-13-97               288                        180
  RI18       05-20-97               376                        180
  RI19       02-06-97         461 (issued 5-12-98)             180

              The following two cases are examples of RIDEM’s untimely
              formal enforcement:

                    Case RI18 - The original inspection was conducted
                    May 20, 1997. The inspectors reported observing
                    literally hundreds of containers of waste paints and
                    paint related wastes being stored without secondary
                    containment. Sizes of containers ranged from pints
                    to 55 gallon drums. Most containers were rusted
                    without labels. There was no enforcement action
                    issued based on this inspection. A reinspection of
                    the facility by RIDEM staff was conducted on
                    September 10, 1997. A draft formal enforcement

                             14                               Report No. 9100078
                RCRA Significant Non-Complier Identification
                       and Enforcement by the Rhode Island
                  Department of Environmental Management



action dated November 3, 1997 was in the file but
was never issued. A third inspection was conducted
by RIDEM’s

Emergency Response and RCRA staff on March 23,
1998. The RCRA inspector reported that with the
exception of rearranging individual containers and an
apparent turnover of waste for off-site disposal, little
had changed with respect to on-site management of
hazardous waste. A draft formal enforcement action
dated April 1998 was under OC&I management’s
revie                                          w but
was                                            not
issue                                          d as of
May                                            31,
1998.                                          The
EPA                                            ERP
provi                                          des
that                                           formal
enfor                                          cement
shoul                                          d take
180                                            days,
RIDE                                           M had
spent                                          376
days                                           as of
May                                            31,
1998                                           with no
enfor                                          cement
actio                                          n
taken                                          .




         15                               Report No. 9100078
                      RCRA Significant Non-Complier Identification
                             and Enforcement by the Rhode Island
                        Department of Environmental Management




                      Waste Stored at RI18

      Case RI15 - RIDEM OC&I Enforcement staff
      conducted inspections on May 8, 1997 and June 5,
      1997 and issued a LOD dated July 17, 1997 based

      on violations found during their inspection. The
      violator did not respond to RIDEM’s LOD which
      resulted in RIDEM issuing the facility a ten day
      warning letter on October 1, 1997. A third inspection
      of the facility was conducted on November 5, 1997.
      An NOV was under review by OC&I management but
      was not issued as of May 31, 1998. RIDEM’s
      untimely enforcement has allowed this facility to go
      206 days since the November 1997 inspection.

RIDEM disagreed with the OIG conclusions of untimely
enforcement because of the small number of cases
reviewed and the specific issues surrounding these four
cases. RIDEM also stated that the ERP allows 20 percent
of formal enforcement actions to exceed the standard time
frames.

RIDEM’s total universe of proposed formal enforcement
cases was four. All four cases exceeded the ERP standard
time frame, two by more than 100 percent. RIDEM’s
statement that the ERP allows 20 percent of formal

               16                               Report No. 9100078
                                                   RCRA Significant Non-Complier Identification
                                                          and Enforcement by the Rhode Island
                                                     Department of Environmental Management



                           enforcement cases to exceed the standard time frames is
                           not applicable to this situation. The ERP allows 20 percent
                           of formal enforcement to exceed standard time frames when
                           there are unique factors which necessitate a larger time
                           frame. Even when there are unique factors, 80 percent of
                           formal enforcement actions should be on time. We found
                           that all (100 percent) of RIDEM’s formal enforcement actions
                           in process since the reorganization, exceeded the ERP’s
                           standard time frame.

RI                                                                                         D
E              Comparison of LODs Issued to Average Number of Days to Issue                M
m 90                                                                                       an
a    80                                                                                    ge
m 70                                                                                       en
t    60                                                            No. of LODs Issued      st
at 50                                                           Avg/Days Issuance (LOD)    ed
th 40                                                                                      at
th 30                                                                                      e
     20
S                                                                                          ep
te 10 1995                      1996                   1997                                m
b                              Years                                                       er
1                                                                                          99
6 reorganization reduced resources which affected enforcement performance. From
September 1996 to March 1997, RCRA enforcement staff was reduced from two
inspectors to one. As of March 1997, RCRA enforcement staff was back to its
1995/1996 level. RIDEM does not have established time frames for issuing
enforcement actions nor a formal system for management to track enforcement case
status.

                           The following graph shows two lines which represent the
                           reduced level of informal enforcement actions issued and
                           the increase in time to issue these actions. The left side of
                           the graph represents the number of days to issue, and the
                           number of informal actions issued over years. The period
                           covered by the graph is fiscal years 1995, 1996, and 1997.




                                            17                               Report No. 9100078
                                RCRA Significant Non-Complier Identification
                                       and Enforcement by the Rhode Island
                                  Department of Environmental Management




           Currently, there are seven proposed informal enforcement
           actions from 1997 and 1998 inspections which had an
           average of 323 days elapsed as of May 31, 1998 with no
           enforcement actions issued. The cases are as follows:




FACILITY         INSPECTION           STATUS            DAYS
                    DATE                               ELAPSED
  RI20               3-2-97          Not Issued            454
  RI21              3-28-97          Not Issued            428
  RI14              4-16-97          Not Issued            410



                          18                              Report No. 9100078
                               RCRA Significant Non-Complier Identification
                                      and Enforcement by the Rhode Island
                                 Department of Environmental Management




RI22              6-9-97            Not Issued            352
RI23             10-18-97           Not Issued            233
RI24             11-19-97           Not Issued            192
RI25             11-19-97           Not Issued            192


       In responding to our position paper, RIDEM stated that in six
       of the cases, management received either outdated
       inspection reports or incomplete files. As a result,
       management required the staff to reinspect the facilities, in
       some of the cases, to determine the current status of the
       violations. This explanation supports the need for RIDEM to
       establish an effective administrative control system. RIDEM
       management needs a system to track where enforcement
       actions are at all times. Also, RIDEM management needs to
       set time frames on when action should be completed and do
       more oversight of RCRA case production to ensure timely
       enforcement is taken. The EPA ERP provides that the
       objectives of an informal enforcement response are to
       compel the violator to cease its non-compliant activities and
       ensure that full physical compliance is achieved in the
       shortest possible time frame. Not only is RIDEM failing to
       compel facilities to quickly return to compliance, but it is also
       putting a strain on its own resources by requiring re-
       inspections. Such re-inspections take time away from
       inspecting other facilities.




                       19                                Report No. 9100078
                                              RCRA Significant Non-Complier Identification
                                                     and Enforcement by the Rhode Island
                                                Department of Environmental Management




Inadequate Follow-up   RIDEM’s OC&I did not conduct effective follow-up of cited
to Cited Violations    violations to ensure that facilities returned to compliance. In
                       10 of the 20 files reviewed, OC&I’s follow-up was non-
                       existent or inadequate (See Appendix B). In addition, our
                       review of the 1996 and 1997 RCRIS data listings of
                       inspections, with violations, showed that 31 of 47 cases
                       exceeded the EPA ERP correction period deadline of 90
                       days by as many as 888 days as of March 31, 1998. The
                       average number of days the violations were opened without
                       an actual compliance date was 393. OC&I managers did
                       not have a system to assure that RIDEM staff conducted
                       adequate follow-up. As a result, hazardous conditions may
                       continue to exist longer than necessary.

                       Region 1 previously noted RIDEM’s lack of follow-up. As
                       part of its oversight activities, in February 1997, Region 1
                       identified an increasing number of facilities (210 facilities
                       State-wide) with violations which had not returned to
                       compliance. In response to Region 1's questioning of these
                       open cases, RIDEM included a specific initiative in its 1997
                       Waste Compliance Strategy to address these 210 facilities
                       having incomplete RCRIS reporting. At the time of our
                       audit, lack of follow-up continued to be a problem.

                       The EPA ERP provided the following informal enforcement
                       response time guidance:

                              The objectives of an informal enforcement response
                              are to compel the violator to cease its non-compliant
                              activities and ensure that full physical compliance is
                              achieved in the shortest possible time frame.

                              At the time a violator is formally notified of the
                              violation determination it is given a compliance date
                              which establishes a deadline for the violator to
                              correct all known violations. A correction period
                              during which a violator should correct all known


                                       20                               Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management



      violations should not exceed 90 days.

      Failure to achieve full compliance by the compliance
      date or a failure to notify the implementing agency of
      the inability to correct violations should result in an
      escalation to formal enforcement.

The following two case files are examples of inadequate
follow-up to cited violations:

Case RI13 - While RIDEM correctly took formal enforcement
action and issued Notices of Violation (NOVs) on February
14, 1995 and April 9, 1996, RIDEM did not assure that the
violations were corrected. These NOVs reported a total of
eight violations severe enough to warrant formal
enforcement. RIDEM and the facility negotiated a Consent
Agreement (CA). The CA dated January 20, 1998
addressed the penalties associated with the NOVs but not
the cited violations. The inspector advised that no follow-up
to the cited violations was conducted. RCRIS showed the
1995 inspection violations remained open. This facility’s
history of chronic violations with RIDEM required timely and
effective follow-up which RIDEM did not provide.

RIDEM stated that enforcement actions against this facility
took place well before OC&I came into existence.

Additionally, the enforcement actions were appealed to the
adjudicatory division, outside the control of the regulatory
program.

While the NOVs were issued before OC&I was created,
since November 1996, OC&I was involved in ongoing
negotiations for the consent agreement which did not
address the previously cited violations. Currently, OC&I is
responsible for assuring that RCRA violators return to
compliance. RCRIS showed that violations going back to
1995 remained opened. However, the RCRA enforcement
program was delegated to the State, and it is the State’s

                21                               Report No. 9100078
                         RCRA Significant Non-Complier Identification
                                and Enforcement by the Rhode Island
                           Department of Environmental Management



responsibility to assure that this facility returns to
compliance.

Case RI04 - This facility was issued an informal
enforcement action on November 20, 1995. The LOD
contained three violations based on an inspection
conducted on October 25, 1995. The LOD called for
compliance to be completed within 30 days. RIDEM’s LODs
contained the following:

       Please be advised that failure to comply with any of
       the above-cited requirements within the specified
       compliance schedule will result in the issuance of a
       Notice of Violation and Order and Penalty.
       Enforcement actions resulting from continued non-
       compliance may result in a maximum fine of $10,000
       per day and/or five (5) years imprisonment.

The facility did not respond. RIDEM’s follow-up to ensure
compliance was excessively late. More than two years later,
RIDEM issued a ten day warning letter on March 9, 1998. In
this letter, RIDEM advised the facility that failure to comply
with requirements within ten days may result in a Notice of
Violation and Order and Penalty. Well beyond ten days
later, on May 22, 1998, RIDEM sent the facility another letter
advising that two of the three violations were still
outstanding and that continued non-compliance may include
the assessment of an administrative penalty. This case
further illustrates the ineffectiveness of RIDEM’s follow-up
system. Sending a ten day warning letter two and a half
years after the violations were discovered conveys the
wrong message to the regulated industry. The EPA ERP
says failure to return to compliance within 90 days should
result in raising the enforcement response to the formal
enforcement level.

Case RI16 was another facility included in our sample.
RIDEM issued an informal enforcement action but there was
no evidence in the file to show the facility’s return to

                 22                                Report No. 9100078
                       RCRA Significant Non-Complier Identification
                              and Enforcement by the Rhode Island
                         Department of Environmental Management



compliance. Based on questions raised by the auditor,
RIDEM inspectors reinspected the facility and found at least




one of the previously cited violations still outstanding.
RIDEM planned to issue an enforcement action based on
the reinspection results.

Cases RI04 and RI16 were two facilities with open
violations. When RIDEM followed-up on these facilities, it
found that previously cited violations were still open. These
two examples demonstrate the importance for timely follow-
up in order to determine the status of open violations. This
follow-up is especially important for RIDEM because of the
large number of open violations recorded in RCRIS.

RIDEM responded that enforcement actions took place well
before the creation of OC&I for the cases of RI04, RI05,
RI16, RI12,and RI08. The response continued, “According
to the time frames provided in the EPAIG’s report, those
enforcement actions should have been resolved well before
OC&I came into existence. Therefore, it is inappropriate to
cite the OC&I for the above noted cases in the EPAIG’s
findings.”

We concur with OC&I’s statement that enforcement actions
should have been resolved well before OC&I came into
existence. However, they were not, and it is now OC&I’s
responsibility. RIDEM is responsible for RCRA enforcement
and OC&I is that office within RIDEM that has responsibility
for enforcement against all non-permitted facilities. RIDEM
included a provision in the 1997 Waste Compliance
Strategy to dedicate staff to close over 200 open violations
in RCRIS. In our opinion, this provision showed that
RIDEM’s OC&I accepted responsibility for unresolved
violations. Additionally, with regards to RI04 and RI05,
OC&I eventually was involved with these cases. OC&I

                23                               Report No. 9100078
                                             RCRA Significant Non-Complier Identification
                                                    and Enforcement by the Rhode Island
                                               Department of Environmental Management



                      issued a ten day warning letter on March 9, 1998 to RI04
                      and reinspected RI05 on December 20, 1996.

                      Timely and effective follow-up could also have prevented
                      the unproductive use of staff used to perform second and
                      sometimes third reinspections. RIDEM stated it is not their

                      normal practice to perform second and third inspections.
                      However, we found reinspections were conducted at RI18,
                      RI15, RI14, RI26, RI21, RI22, RI23, and RI20.
                      Reinspections were used primarily in current cases.

                      Management did not effectively utilize RCRIS as a tracking
                      system or provide effective oversight to ensure that
                      inspectors were conducting timely and appropriate follow-up
                      to cited violations. Management relied upon individual
                      inspectors to track facility compliance. Inspectors informed
                      us that conducting inspections was a priority, not follow-up.
                      As a result, RIDEM allowed facilities with cited violations to
                      continue to operate without ensuring that the facility
                      returned to compliance. In instances when facilities did not
                      return to compliance within stated time-frames, RIDEM did
                      not escalate enforcement actions. By allowing this to occur,
                      the State residents’ health and safety may not be protected;
                      non-complying facilities may be provided an economic
                      advantage because of their non-compliance; and the RCRA
                      Enforcement Program was not administered in compliance
                      with EPA and RIDEM’s policies and guidance.


SNCs Identification   The RIDEM RCRA Supervisor stated that RIDEM historically
                      did not identify SNCs in RCRIS because this was an EPA
                      “bean count” and RIDEM did not want to be locked into the
                      time frame constraints dictated by the SNC designation.
                      The RIDEM RCRA Supervisor said that there was an
                      agreement between EPA and Region 1 whereby EPA
                      designated a facility as a SNC if appropriate. The prior
                      Region 1 RCRA Enforcement Coordinator confirmed the


                                      24                               Report No. 9100078
                      RCRA Significant Non-Complier Identification
                             and Enforcement by the Rhode Island
                        Department of Environmental Management



RIDEM Supervisor’s statements.

The RIDEM Fiscal Year 1996 RCRA Grant application
contained the following statement:

      In response to the issue of designation of significant
      non-compliers, ...once an Order is issued, it begins to
      get caught up in the legal system, and often times
      due to scheduling conflicts, unavailability of lawyers,
      continuance, etc...., we are unable to proceed with a
      closure of the action as planned. It is due to these
      delays, which are beyond our control, that the state is
      hesitant to “designate” this status, and then be
      “locked-in” to strict deadlines. The state can easily
      identify these types of violations, and does proceed
      with the enforcement in accordance with the
      enforcement policy, and the potential for a missed
      deadline to be viewed as a “missed commitment” for
      the state, makes this issue one that this state wishes
      to avoid. EPA has previously agreed to identify these
      violators at the regional level, based on our monthly
      reports to the regional office, in order to meet their
      regional commitment. The state is satisfied with this
      level of interaction and will continue to deal with this
      issue in this manner.


RIDEM’s OC&I Director stated that RIDEM will be
responsible for identifying SNCs in RCRIS as part of the
Fiscal Year 1998 Enforcement and Compliance Plan. This
plan provided:

      According to national enforcement policy,
      implementers of programs to enforce the Clean Air
      Act, the Clean Water Act, the Safe Drinking Water
      Act, and the Resource Conservation and Recovery
      Act are required to identify and address significant
      noncompliers (also called significant violators) to
      minimize or eliminate risk to human health and the

               25                               Report No. 9100078
                                    RCRA Significant Non-Complier Identification
                                           and Enforcement by the Rhode Island
                                      Department of Environmental Management



                   environment. To this end, to the extent that
                   resources and laws allow, the state commits to (1)
                   undertake targeting strategies and inspection
                   protocols designed to identify significant
                   noncompliance, (2) identify detected significant
                   noncompliers and continue to submit data for the
                   national enforcement database maintained by EPA,
                   (3) communicate and coordinate with EPA on the
                   enforcement actions undertaken in response to the
                   significant noncompliance on a monthly or quarterly
                   basis depending on the program needs, and (4)
                   address these identified facilities with enforcement
                   responses sufficient to ensure compliance and
                   recovery of penalties.

             RIDEM has agreed to now identify SNCs. No further action
             on SNC identification is necessary at this time. However,
             RIDEM still needs to proceed with appropriate and timely
             enforcement actions on those SNCs.


CONCLUSION   RCRA enforcement was not a State priority. RIDEM’s
             enforcement performance has been declining over the past
             three years. RIDEM’s enforcement program has not
             provided the level of assurance that (1) violators received
             the appropriate level of enforcement within recommended
             time frames and that (2) violators returned to compliance on
             a timely basis.

             This decline is a direct consequence of the insufficient
             management priority given to the program. Grant funds
             were not fully spent and vacancies were not timely filled. In
             addition, RIDEM needed to provide more management
             oversight by establishing stronger administrative controls
             over its RCRA enforcement program.

             The Regional Administrator and his staff have been actively
             working at all levels of State government attempting to


                             26                               Report No. 9100078
                      RCRA Significant Non-Complier Identification
                             and Enforcement by the Rhode Island
                        Department of Environmental Management



improve RIDEM’s RCRA program. We support the Region’s
efforts to work cooperatively with the State. A strong
enforcement program is essential to effective environmental
protection.




               27                               Report No. 9100078
                                         RCRA Significant Non-Complier Identification
                                                and Enforcement by the Rhode Island
                                           Department of Environmental Management



RECOMMENDATIONS   We recommend that the Regional Administrator:

                  2-1.   Continue to monitor RIDEM’s RCRA enforcement
                         program to ensure that:

                               enforcement actions are issued within EPA
                               ERP standard time frames;

                               significant non-compliers are identified and
                               receive a formal enforcement response;

                               RCRIS is updated and utilized as a tracking
                               system for all evaluations and all enforcement
                               action types;

                               timely follow-up inspections are performed to
                               assure that non-complying facilities return to
                               compliance; and

                               facilities which do not come into compliance
                               within the established time frames have their
                               enforcement action elevated to formal
                               enforcement status and aggressively tracked
                               until compliance is achieved.

                  We are aware the Regional Administrator has established
                  goals and milestones on which to evaluate RIDEM’s
                  progress in improving its RCRA enforcement program. If
                  RIDEM does not satisfactorily meet these milestones, we
                  recommend that the Regional Administrator:

                  2-2.   Begin the process of withdrawal of the State’s
                         delegated authority for RCRA enforcement.


REGIONAL          Region 1 agreed with our findings, conclusions and
COMMENTS          recommendations. The Regional Administrator issued a
                  letter on September 29, 1998, outlining specific milestones


                                  28                               Report No. 9100078
                                         RCRA Significant Non-Complier Identification
                                                and Enforcement by the Rhode Island
                                           Department of Environmental Management



                   that RIDEM must meet in order to demonstrate its
                   commitment to environmental protection and the RCRA
                   enforcement program. The Regional Administrator stated
                   that EPA is prepared to proceed with formal RCRA
                   authorization withdrawal proceedings if necessary.

                   The Region’s response noted one minor point that should be
                   clarified in the report. Some of the cases reviewed involved
                   inappropriate or untimely enforcement of non-Federally
                   regulated wastes.

OIG COMMENTS       We concur with the Regional response and its planned
                   actions. Two non-Federally regulated cases were included
                   in our review in order to evaluate RIDEM’s total program.
                   We found that RIDEM did not adequately address either
                   State or Federal violations of their RCRA program.
                   Additionally, these cases were tracked in RCRIS and are
                   regulated under State law as hazardous waste. We
                   recognize that EPA would not have authority to enforce
                   these cases.

RIDEM’s COMMENTS   RIDEM stated that it was disappointed in the audit process
                   and claimed that its response to the OIG position paper was
                   not recognized. However, the response went on to focus on
                   the following positive steps RIDEM is taking:

                         !      Staffing - The State created three new
                                positions in the RCRA enforcement program.

                         !      Enforcement Response Policy - RIDEM has
                                developed a new enforcement policy that is as
                                stringent as EPA’s ERP.

                         !      Issuance of Formal Enforcement Actions -
                                Weekly meetings have been initiated to ensure
                                formal enforcement actions are issued on a
                                timely basis.



                                  29                               Report No. 9100078
                                    RCRA Significant Non-Complier Identification
                                           and Enforcement by the Rhode Island
                                      Department of Environmental Management




                     !     Penalty Calculations - RIDEM has taken steps
                           to ensure that the RCRA enforcement program
                           will perform, and document a calculation of an
                           appropriate penalty that includes economic
                           benefit of the alleged violation.

                     !     Enforcement Strategy Documentation - Files
                           will be documented to justify any future
                           decisions with respect to non-penalty actions
                           or no action after discovery of RCRA violations
                           at a facility.

                     !     Backlog of Unresolved Cases - RIDEM has
                           developed a plan to address the backlog.

                     !     Inspections - RIDEM has committed to
                           complete an established number of
                           inspections.

                     !     Maintenance of the RCRIS Data Base - RIDEM
                           has completed submitting all outstanding
                           compliance data and has dedicated a staff
                           assistant to maintain the RCRIS database.

                     !     Identification of Significant Non-Compliers -
                           RIDEM will identify SNCs in the RCRIS.

                     !     Follow-up on enforcement action and tracking -
                           RIDEM is creating a data management system
                           to insure that enforcement actions are taken
                           within appropriate time frames and required
                           time frames to return to compliance are met.

OIG COMMENTS   We considered and evaluated RIDEM’s response to the
               position paper in developing the draft report. We concur
               with the actions being taken by RIDEM to improve its RCRA
               enforcement program. We believe RIDEM should continue


                             30                               Report No. 9100078
                                       RCRA Significant Non-Complier Identification
                                              and Enforcement by the Rhode Island
                                         Department of Environmental Management



                to work closely with Regional staff to assure that their steps
                are successful at improving RIDEM’s RCRA program.

                                                                   Appendix A

           INADEQUATE LEVEL OF ENFORCEMENT
FACILITY                                   INSPECTION RESULTS
RI01                              Chronic violator, leaking hazardous
                                  waste (HW) and inadequate inspections.
RI02                              Improper waste stream identification and
                                  management, inadequate labeling and
                                  secondary containment, HW stored in
                                  excess of 90 days, operating HW storage
                                  facility without a RCRA permit, staff not
                                  aware of contingency plan and no
                                  training.
RI03                              Chronic violator, open enforcement order
                                  not fully complied with, improper waste
                                  storage, significant floor cracks in
                                  containment area and inadequate
                                  secondary containment.
RI04                              No contingency plan, no training of staff
                                  and manifest deficiencies.
RI05                              No contingency plan, no training, HW
                                  stored in excess of 90 days and
                                  inadequate secondary containment.
RI06                              Inadequate secondary containment, no
                                  HW contingency plan, HW stored in
                                  excess of 90 days.
RI07                              No contingency plan, no training of staff,
                                  HW determinations not made, unlabeled
                                  drums and manifest deficiencies.



                                31                               Report No. 9100078
             RCRA Significant Non-Complier Identification
                    and Enforcement by the Rhode Island
               Department of Environmental Management




RI08    No contingency plan, no secondary
        containment, waste allowed to migrate
        out of container into ground.
RI09    Public health issue, chronic violator, no
        secondary containment.


RI10    Chronic violator, leaking lead-acid
        batteries with no containment, no
        contingency plan or training of staff.

RI11    No secondary containment, no
        contingency plan, no training, potential
        HW material spilled on ground.
RI12    Inadequate secondary containment, no
        HW contingency plan, no training,
        evidence of contaminated soil and no
        spill control materials.




       32                              Report No. 9100078
                                RCRA Significant Non-Complier Identification
                                       and Enforcement by the Rhode Island
                                  Department of Environmental Management



                                                            Appendix B


       INADEQUATE FOLLOW-UP TO CITED VIOLATIONS
          FACILITY                        COMMENTS
RI13                       Facility was issued 2 NOVs dated 2-95
                           and 4-96. The consent agreement dated
                           1-98 dealt with penalties only. There was
                           no follow-up to the cited violations. Days
                           elapsed from last NOV to consent
                           agreement was 646.
RI14                       Facility inspected on 4-16-97. LOD dated
                            12-2-97 was in file but never issued.
                           Facility was re-inspected 1-29-98 and
                           inspection noted material previously cited
                           as waste was now gone, used as product.
                           Days elapsed from inspection to
                           compliance reinspection 283.
RI04                       LOD issued 11-20-95, 10 day warning
                           notice issued 3-9-98 as follow-up to LOD.
                           As of 5-22-98 facility has not complied
                           with LOD. This case should have been
                           raised to formal enforcement level. Days
                           elapsed from inspection to 5-22-98 was
                           936.
RI05                       LOD issued on 5-22-96 calling for
                           compliance in 30 days. Follow-up was
                           conducted on 12-20-96. Inspector
                           found that waste was gone, however, file
                           does not indicate where waste had gone.
                           Days elapsed from inspection to
                           compliance date 249.




                          33                              Report No. 9100078
             RCRA Significant Non-Complier Identification
                    and Enforcement by the Rhode Island
               Department of Environmental Management




RI15    LOD dated 7-17-97, 10 day warning
        notice issued 10-1-97, two reinspections
        conducted. Violator failure to come into
        compliance should have resulted in
        elevating the enforcement to formal
        enforcement. Days elapsed from LOD
        Issuance to 5-31-98 was 314.
RI06    LOD issued on 10-28-96. The facility did
        not provide evidence of compliance and
        RIDEM did not re-inspect to determine
        compliance. This case may need to be
        elevated to formal enforcement. Days
        elapsed as of 5-31-98 was 579.
RI16    Letter of violation issued 11-28-95,
        inspector called facility on 2-28-96.
        Facility responded on 2 of 3 violations. In
        May 1998, a reinspection was conducted
        and the same violation (Labeling) was
        found. This represents an instance where
        formal enforcement is required even
        though it is very late. Days elapsed as of
        5-31-98 was 913.
RI12    No evidence of compliance to RIDEM’s
        5-8-96 LOD containing 10 violations.
        Days elapsed as of 5-31-98 was 753.
RI09    No evidence of compliance to 9-13-96
        LOD containing 3 violations. Days
        elapsed as of 5-31-98 was 623.
RI08    No evidence of return to compliance to
        RIDEM’s 6-26-96 LOD containing 8
        violations. Days elapsed as of 5-31-98
        was 700.




       34                              Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management



                                   Appendix C




35                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




36                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




37                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




38                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




39                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




40                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




41                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




42                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




43                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




                                   Appendix D




44                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




45                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




46                             Report No. 9100078
     RCRA Significant Non-Complier Identification
            and Enforcement by the Rhode Island
       Department of Environmental Management




47                             Report No. 9100078
                                                      RCRA Significant Non-Complier Identification
                                                             and Enforcement by the Rhode Island
                                                        Department of Environmental Management



                                                                                    Appendix E

                                       DISTRIBUTION

Office of Inspector General

Office of Inspector General - Headquarters (2421)
Executive Assistant to Inspector General (2410)
Assistant Inspector General for Audit (2421)
Deputy Assistant Inspector General for Internal Audits (2421)
Divisional Inspector Generals

EPA Region 1

Regional Administrator
Director, Office of Environmental Stewardship
Director, Office of Ecosystem Protection
Enforcement Managers (OES)
Chief, RCRA Technical
Audit Coordinator

Headquarters

Agency Audit Follow-up Coordinator (2724)
Agency Audit Follow-up Official (2710)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Assistant Administrator for Solid Waste and Emergency Response (5101)
Associate Administrator for Congressional & Legislative Affairs (1301)
Associate Administrator for Communications, Education & Public Affairs (1701)
Associate Administrator for Regional Operations & State/Local Relations (1501)
EPA Library (3404)


Other

Rhode Island Department of Environmental Management
General Accounting Office



                                                48                              Report No. 9100078
